           FINANCIAL INFORMATION COMPILED BY
               DOD FIELD ACCOUNTING SITES



Report No. D-2001-180                  September 13, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
OMB                   Office of Management and Budget
USD (Comptroller)     Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2001-180                                                 September 13, 2001
   (Project No. D2001FI-0018.005)

   Financial Information Compiled by DoD Field Accounting Sites

                                    Executive Summary

Introduction. This report is the fifth and final in a series of audit reports related to the
FY 2000 DoD Agency-Wide Financial Statements. The first report discusses the
internal controls and compliance with laws and regulations for DoD. The second report
discusses the assessment of the FY 2000 Financial Management Improvement Plan.
The third report discusses the Audited Financial Statement module of the Defense
Departmental Reporting System. The fourth report discusses compilation issues related
to the preparation of the FY 2000 DoD Agency-Wide Financial Statements. This
report discusses the accuracy and reliability of financial data compiled by the DoD field
accounting sites. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD to prepare annual audited
financial statements. Defense Finance and Accounting Service central accounting sites
maintain department-level accounting records and prepare financial statements from
general ledger trial balances and other financial data submitted by field accounting sites
and DoD entities. Field accounting sites were formerly known as Operating Locations,
accounting offices at the Defense Finance and Accounting Service Centers, or Finance
and Accounting Offices. The DoD Agency-Wide financial statements for FY 2000
reported total net cost-of-operations of $347.5 billion, assets of $616.7 billion,
liabilities of $1,002.8 billion, and budgetary resources of $656.1 billion.

Objectives. Our overall objective was to determine whether the FY 2000 DoD
Agency-Wide Financial Statements were prepared in accordance with Office of
Management and Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” October 16, 1996, as amended. As part of the objective, we were to
determine whether DoD field accounting sites compiled and submitted accurate and
reliable financial information to the Defense Finance and Accounting Service central
accounting sites. We also evaluated the adequacy of internal controls that were in place
and operating during the preparation of the financial information.

Results. Field accounting sites at 10 of 13 locations made accounting entries totaling
about $19.5 billion that were not supported and reported accounting information with
about $0.5 billion in abnormal balances. For example, Defense Finance and
Accounting Service Omaha made unsupported accounting entries totaling about
$11.6 billion to U.S. Transportation Command Working Capital Fund records. Also,
the Defense Agency Financial Services Office reported $233.8 million (net) in
abnormal balances for the Other Defense Organizations General Fund. As a result, the
central accounting sites received unreliable data to prepare the FY 2000 DoD Agency-
Wide Financial Statements. See the Finding section for details on the audit results and
Appendix A for details on our review of the management control program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) revise DoD Regulation 7000.14-R, “DoD Financial Management
Regulation” to require that approving officials be provided with all supporting
documentation at the time each journal voucher is submitted for approval. We
recommend that the Under Secretary of Defense (Comptroller) also require all
abnormal balances to be researched and corrected if the causes can be identified. If the
abnormal balances are not resolved, they should be noted in the trial balance data
provided to the central accounting sites so that they can be further researched or
disclosed in the Notes to the Principal Statements. We also recommend that the
Director, Defense Finance and Accounting Service Arlington develop and execute an
implementation strategy to correct the deficiencies identified in the report and monitor
the progress.

Management Comments. The Under Secretary for Defense (Comptroller) stated that
DoD Regulation 7000.14-R, “DoD Financial Management Regulation” would be
revised to require that supporting documentation be provided when a journal voucher is
submitted for approval. The Under Secretary of Defense (Comptroller) stated that fund
holders instead of the accounting sites should be responsible for research and corrective
action of abnormal balances. The Under Secretary of Defense (Comptroller) did not
agree that abnormal balances had to be disclosed in the notes of the DoD Agency-Wide
financial statements because they believe the disclosure that the entity cannot comply
with generally accepted accounting principles was sufficient. The Defense Finance and
Accounting Service stated that draft implementation strategies had been developed that
address some of the issues raised in the report. The Defense Finance and Accounting
Service will take actions to encourage the field accounting sites to update and
implement local operating procedures and to provide comprehensive journal voucher
training. See the Finding section for a discussion of management comments and the
Management Comments section for the complete text.

Audit Response. The Under Secretary of Defense (Comptroller) comments were
responsive in part. We request that the Under Secretary of Defense (Comptroller)
provide a date for when the DoD Regulation 7000.14-R, “DoD Financial Management
Regulation” will be revised. We also request planned corrective actions for the
recommendation to research abnormal balances, and reconsideration of the position to
properly disclose abnormal balances in the notes to the financial statements. We
request that your comments be provided on the final report by November 13, 2001.
The Defense Finance and Accounting Service comments were considered responsive,
so no additional comments are required.




                                            ii
Table of Contents

Executive Summary                                i


Introduction
     Background                                  1
     Objectives                                  3

Finding
     Compilation of Financial Information       4

Appendixes
     A. Audit Process
         Scope                                  17
         Methodology                            18
         Management Control Program Review      19
         Prior Coverage                         20
     B. General Guidance                        21
     C. Summary of Audit Work Performed         24
     D. Report Distribution                     34

Management Comments
     Under Secretary of Defense (Comptroller)   37
     Defense Finance and Accounting Service     40
Background
    This report is the fifth and final in a series of audit reports related to the
    FY 2000 DoD Agency-Wide Financial Statements. The first report discusses
    the internal controls and compliance with laws and regulations for DoD. The
    second report discusses the assessment of the FY 2000 Financial Management
    Improvement Plan. The third report discusses the Audited Financial Statement
    module of the Defense Departmental Reporting System. The fourth report
    discusses compilation issues related to the preparation of the FY 2000 DoD
    Agency-Wide Financial Statements. This report discusses the accuracy and
    reliability of financial data compiled by the DoD field accounting sites.

    Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
    Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
    “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD
    to prepare annual audited financial statements. Office of Management and
    Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial
    Statements,” October 16, 2000, establishes the requirements for audits of
    Federal financial statements.

            Accounting Functions and Responsibilities. The Under Secretary of
    Defense (Comptroller) (USD [Comptroller]), as the Chief Financial Officer, is
    responsible for overseeing all financial management activities related to the
    programs and operations of DoD. As such, the USD (Comptroller) is
    responsible for compliance with laws and regulations applicable to the DoD
    Agency-Wide financial statements. The compliance includes whether those
    financial statements are prepared in accordance with Federal accounting
    standards and other reporting guidance.

    The Defense Finance and Accounting Service (DFAS) performs accounting
    functions and prepares financial statements for DoD. DFAS operates under the
    control and direction of the USD (Comptroller). DFAS is responsible for
    entering information from DoD entities into finance and accounting systems,
    operating and maintaining the finance and accounting systems, and ensuring the
    continued integrity of the information entered. The DoD reporting entities are
    responsible for providing accurate financial information to DFAS through the
    data feeder systems. The data feeder systems contain the day-to-day operating
    information to be translated into financial information and processed in finance
    and accounting systems. The purpose is to provide useful information for
    financial managers.

            Compilation Process. DFAS central accounting sites compile the
    financial statements for DoD reporting entities. Compilation includes
    maintaining department-level accounting records and preparing financial
    statements from general ledger trial balances and other financial data submitted
    by field accounting sites and DoD entities. DFAS uses amounts reported
    through the accounting systems and information collected from data calls and
    from other sources to compile the annual financial statements. The compilation
    process is complicated because much of the financial data submitted by DoD
                                        1
field accounting sites to the DFAS central accounting sites are not generated by
integrated, transaction-driven, general ledger accounting systems. Field
accounting sites process accounting entries into the DFAS accounting systems
by manual entries and system-generated entries. The field accounting sites
receive financial information from DoD entities.

There are 25 DFAS locations plus other field accounting sites operated by DoD
components. The central accounting sites are located at DFAS Cleveland,
Columbus, Denver, Indianapolis, and Kansas City. Field accounting sites are
located around the world and collocated at DFAS Cleveland, Columbus,
Denver, and Indianapolis. Not all field accounting sites are operated by DFAS.
For example, the U.S. Army Corps of Engineers operates the field accounting
office in Millington, Tennessee.
         DoD Agency-Wide Financial Statements. The DoD Agency-Wide
financial statements for FY 2000 identified total program costs of $374.9 billion
and total earned revenue of $27.4 billion for a total net cost-of-operations of
$347.5 billion. In addition, DoD reported total assets of $616.7 billion, total
liabilities of $1,002.8 billion, and total budgetary resources of $656.1 billion.
The total DoD assets did not include about $700 billion in assets identified as
National Defense property, plant, and equipment, which were included as
supplementary stewardship information in the financial statements.

Reason for the Audit. As in prior years, DoD auditors could not express an
opinion on the FY 1999 and FY 2000 DoD Agency-Wide Financial Statements.
DoD did not provide sufficient, reliable information for the auditors to evaluate
management’s assertions or to verify reported amounts. Because internal
control weaknesses, compilation problems, lack of audit trails, and financial
management system deficiencies persist, the audit community could not verify
material line item amounts reported on financial statements. For example, the
DFAS central accounting sites processed at least $7.6 trillion in FY 1999 and
$4.5 trillion in FY 2000 in department-level accounting entries to DoD
component financial data. Those accounting entries affected the reliability of
the DoD Agency-Wide financial statements. Table 1 provides a comparison of
the FY 1999 and the FY 2000 data.




                                    2
                   Table 1. Comparison of Department-level
                             Accounting Entries
                                (in trillions)

               Classification            FY 2000            FY 1999

           Supported entries                 $2.8              $3.5

           Unsupported entries               $1.2              $2.3

           Entries not reviewed              $0.5              $1.8

                   Total                     $4.5              $7.6



     Because much of the data that culminated in the FY 1999 results reported by the
     central accounting sites originated below the central accounting site level, we
     determined that a review of processes used at the field accounting sites to
     compile financial information and related internal controls was warranted.
     Review of the processes and internal controls could provide insight on other
     problems related to these department-level accounting entries.

Objectives
     Our overall objective was to determine whether the FY 2000 DoD Agency-Wide
     Financial Statements were prepared in accordance with Office of Management
     and Budget (OMB) Bulletin No. 97-01, “Form and Content of Agency Financial
     Statements,” October 16, 1996, as amended. As part of the objective, we were
     to determine whether DoD field accounting sites compiled and submitted
     accurate and reliable financial information to the DFAS central accounting sites.
     We also evaluated the adequacy of internal controls that were in place and
     operating during the preparation of the financial information. Appendix A
     discusses the scope and methodology related to the audit objectives, the review
     of the management control program, and prior audit coverage.




                                         3
                   Compilation of Financial Information
                   The field accounting sites were not processing and reporting data that
                   were accurate and reliable to the DFAS central accounting sites.
                   Specifically, field accounting sites made accounting entries totaling about
                   $19.5 billion that were not supported and reported financial information
                   with about $0.5 billion in abnormal balances. Two examples are:

                       •   DFAS Omaha made unsupported accounting entries totaling about
                           $11.6 billion to U.S. Transportation Command Working Capital
                           Fund records, and

                       •   Defense Agency Financial Services Office∗ reported
                           $233.8 million (net) in abnormal balances for the Other Defense
                           Organizations General Fund.

                   DoD guidance for preparing journal vouchers and correcting abnormal
                   balances was not followed because of the lack of personnel training and
                   local operating procedures. DoD field accounting site personnel made
                   accounting entries that were not properly reviewed and approved. DoD
                   guidance for approving journal vouchers and disclosing abnormal
                   balances was also inadequate. In addition, there was no mechanism to
                   ensure that field accounting offices compiled financial information in
                   accordance with DoD requirements. As a result, the DFAS central
                   accounting sites received unreliable data to prepare the FY 2000 DoD
                   Agency-Wide Financial Statements.

Guidance for Compiling Financial Information
           The Joint Financial Management Improvement Program and OMB publications
           address internal controls, policies, and procedures for recording, compiling, and
           reporting financial information. Appendix B provides details on specific
           guidance on accounting and internal controls. DoD Regulation 7000.14-R,
           “DoD Financial Management Regulation,” and DFAS guidance implement these
           policies and procedures.

           DoD Financial Management Regulation. The DoD Regulation 7000.14-R,
           volume 6A, “Reporting Policy and Procedures,” February 1996, as revised
           through April 2000, provides guidance on the responsibilities of DFAS and its
           customers regarding financial reports and the treatment of transactions from
           which the financial data in the reports are derived. DoD Regulation 7000.14-R,
           volume 6B, “Form and Content of the Department of Defense Audited Financial
           Statements,” December 2000, provides guidance on the preparation and



∗
    The Defense Agency Financial Services Office at Defense Finance and Accounting Services
    Indianapolis provides accounting support for 18 Other Defense Organizations.

                                                    4
     presentation of DoD financial statements. DoD Regulation 7000.14-R provides
     additional guidance on researching abnormal balances and making adjusting
     entries.

              Supporting Accounting Entries. DoD Regulation 7000.14-R requires
     that all accounting entries be adequately supported and justified in writing in the
     official accounting records. Documentation related to the accounting entry must
     include the rationale and justification, the detail numbers and dollar amounts of
     errors or conditions that are associated with the transactions or records that are
     proposed for adjustment, and name and position of the approving official.
     Further, the guidance states that the documentation must provide an adequate
     audit trail to the adjusted or corrected transactions.

             Abnormal Balances. DoD Regulation 7000.14-R requires that financial
     reports be reviewed for abnormal balances, mathematical accuracy, correct
     internal relationships for amounts that are interdependent, and unusual trends
     over multiple time periods. When deficiencies are identified, they must be
     researched and resolved. However, DoD Regulation 7000.14-R only requires
     disclosing abnormal balances included in Accounts Receivable or abnormal
     balances that affect amounts on the Statement of Budgetary Resources.

     DFAS Guidance. DFAS has issued guidance that supplements the guidance in
     DoD Regulation 7000.14-R. On October 28, 1999, DFAS issued a
     memorandum on the subject of “Journal Voucher Guidance,” that provided
     guidance on the use and preparation of journal vouchers. That specific guidance
     included requirements for documenting, reviewing for accuracy, and approving
     journal vouchers. On August 2, 2000, DFAS issued another memorandum on
     the same subject providing guidance that incorporated and emphasized the
     requirements specified in the October 28, 1999, memorandum. The journal
     voucher documentation and approval requirements specified in the
     August 2, 2000, guidance was retroactive to October 1, 1999, for certain
     journal vouchers. Appendix B provides additional details on the DFAS
     guidance.

Reliability of Financial Information
     DoD field accounting sites did not process and report data that were accurate
     and reliable to the DFAS central accounting sites. We reviewed the compilation
     of trial balance data at 13 field accounting sites. The trial balances are not only
     used to provide financial data to the DFAS central accounting sites, but they are
     also part of an important quality control process. The control is to identify
     deficiencies or abnormalities in the financial information. The field accounting
     sites made adjusting accounting entries to trial balance data to correct errors or
     add additional financial information. However, 10 of the field accounting sites
     made $19.5 billion in accounting entries that were not adequately supported and
     reported trial balance data with $0.5 billion in abnormal balances. Deficiencies
     were not found at three of the field accounting sites: DFAS Pacific (Ford
     Island), DFAS San Antonio, and Osan Regional Accounting and Finance Office.
     The details of the results of our reviews are discussed in Appendix C.

                                          5
Accounting Entries. The field accounting sites made entries that were not
adequately supported. The lack of adequate support ranged from no supporting
documentation to inadequate explanations for why an accounting entry was
made. Other accounting entries were made that were not in accordance with
Generally Accepted Accounting Principles. As a result, financial information
submitted to the DFAS central accounting sites was inaccurate and unreliable.
The following discusses examples of unsupported accounting entries.

       •   DFAS Cleveland made $4.13 billion in accounting entries to adjust
           variances between DFAS Norfolk data and to post DFAS Norfolk
           customer data because the customer did not meet year-end reporting
           deadlines. DFAS Norfolk made $163 million in accounting entries to
           adjust variances between two sources of data and for accrued
           liabilities. Those year-end accounting entries were made to the
           FY 2000 Navy General Fund financial data and were processed
           without sufficient documentation.

       •   DFAS Norfolk made $5.2 billion accounting entries to the Navy
           Working Capital Fund March 31, 2000, general ledger of which
           $3.1 billion (or 59.6 percent) were not adequately supported.
           Accounting entries were recorded based on a journal voucher;
           however, supporting documentation was either missing or
           incomplete. Also, the journal vouchers did not have an adequate
           audit trail.

       •   DFAS Omaha made $12.6 billion in accounting entries to the
           March 2000 accounting records of the U.S. Transportation
           Command, Other Defense Organizations Working Capital Fund, of
           which $11.6 billion (92.1 percent) were not adequately supported.
           The supporting documentation was nonexistent, incomplete, or did
           not support the amount of the accounting entry.

       •   DFAS San Bernardino made $1.2 billion in accounting entries to the
           FY 2000 Air Force General Fund trial balance data. The Air Force
           Audit Agency auditors reviewed $310.5 million of the accounting
           entries of which $241.1 million (77.6 percent) were not adequately
           explained or documentation was not attached.

       •   DFAS San Bernardino made $2.3 billion in accounting entries to the
           Air Force Working Capital Fund financial data in March and
           September 2000. Air Force Audit Agency auditors reviewed
           $14.4 million of the accounting entries of which $3.2 million
           (22.2 percent) were not adequately supported. Sufficient
           documentation was not provided to support the journal vouchers, or
           documentation was completely missing.

       •   DFAS St. Louis made $211.5 million in unsupported adjustments to
           force the Army General Fund general ledger data to agree with status
           data as of September 30, 2000. DFAS St. Louis personnel did not
           perform research to determine which file, general ledger, or status
           was correct.
                                   6
Abnormal Balances. Four of the field accounting sites either processed
abnormal balances in the financial data used to prepare trial balances or made
unsupported adjustments that canceled the effects of abnormal balances. The
abnormal balance can be canceled by making an unsupported or improper
adjustment that forces the account to a normal balance. Also, adjustments were
erroneously made that created abnormal account balances. An account balance
is abnormal when the reported balance does not comply with the normal debit or
credit balance established in the general ledger chart of accounts. Abnormal
balances are indicators of potentially material accounting errors. The true
problem could be much greater than the amount of the abnormal balance. For
example, a trial balance could include a general ledger account with an
abnormal balance of $10 million when the correct balance is $300 million. This
would result in the financial statements being understated by $310 million.
When such balances of substantial size are included in the financial statements,
they may materially affect the accuracy and reliability of the statements. The
following discusses the abnormal balances found at the field accounting sites.

       •   The Defense Agency Financial Services Office at DFAS Indianapolis
           prepared trial balances that included 29 abnormal general ledger
           account balances totaling $233.8 million on March 31, 2000, for the
           Other Defense Organizations General Fund financial data. The
           Defense Agency Financial Services Office prepared accounting
           entries to correct transaction errors created in prior reporting
           periods, but recorded the correcting entries to the wrong general
           ledger accounts for Other Defense Organizations General Fund.
           Instead of recording the correcting entries to general ledger account
           7400, Prior Period Adjustments, the accounting entries were
           recorded to general ledger accounts that only reported transactions
           for the current period. As a result, the correcting entries were not
           consistent with Generally Accepted Accounting Principles, and they
           created abnormal balances on the trial balance data.

       •   DFAS Norfolk prepared trial balances containing 59 abnormal
           general ledger account balances totaling $87.2 million on
           September 30, 2000, for the Navy General Fund financial data.
           These abnormal account balances are related to accounts payable and
           undelivered orders and were created when DFAS Norfolk converted
           to a new accounting system in the beginning of FY 1998.

       •   DFAS St. Louis made $85.6 million in temporary unsupported
           adjustments to eliminate abnormal undelivered orders balances from
           the September 30, 2000, status data before reporting the Army
           General Fund financial data to the central accounting site at DFAS
           Indianapolis. An abnormal undelivered order occurs when total
           expenses exceed total obligations. The abnormal balances were
           neither corrected in Army General Fund accounting records nor were
           the temporary adjustments researched. Instead, DFAS St. Louis
           personnel made the temporary accounting entries to status data
           (increasing undelivered orders and decreasing accounts payable) to
           eliminate the abnormal balances before sending reports to DFAS
           Indianapolis.
                                    7
           •   The Washington Headquarters Services prepared trial balances
               containing abnormal balances totaling about $74.9 million (net) for
               DFAS Indianapolis on March 31, 2000. The Washington
               Headquarters Services prepared accounting entries to correct
               transaction errors created in prior reporting periods but recorded the
               correcting entries to the wrong general ledger accounts for the Other
               Defense Organizations General Fund. Instead of recording the
               correcting entries to general ledger account 7400, Prior Period
               Adjustments, the accounting entries were recorded to general ledger
               accounts that only reported transactions for the current period. As a
               result, the correcting entries were not consistent with Generally
               Accepted Accounting Principles and created abnormal balances on
               their trial balance data.

Operating Procedures and Controls
    The field accounting sites did not follow the requirements in DoD Regulation
    7000.14-R and DFAS guidance to prepare journal vouchers and to correct
    abnormal balances. The lack of adequate personnel training and local operating
    procedures contributed to the inability of field accounting sites to comply with
    DoD guidance. Two field accounting sites did not have local operating
    procedures. Accounting entries, made to correct or add financial information,
    were not properly reviewed or approved to ensure that DoD guidance was
    followed. In addition, the guidance in DoD Regulation 7000.14-R and DFAS
    guidance on making accounting entries and disclosing abnormal balances needed
    improvement. In order to improve these internal controls at the field accounting
    sites the Director, DFAS should establish an implementation strategy to provide
    guidance, to include training, and to correct the deficiencies discussed in this
    report.

    Execution of Existing Guidance. The guidance contained in the DoD
    Regulation 7000.14-R and DFAS memorandum were not followed by the field
    accounting sites. As discussed under the “Reliability of Financial Information”
    section, accounting entries were not adequately supported and approved, and
    abnormal balances in financial data were not corrected. For example, DFAS
    San Bernardino personnel who performed the accounting for the Air Force
    Working Capital Fund were aware of the procedures for making and supporting
    accounting entries, but they did not consistently follow the requirements because
    of the heavy workload. DFAS Omaha maintained the accounting records for the
    U.S. Transportation Command but did not follow the DoD Regulation
    7000.14-R or DFAS guidance for supporting journal vouchers. Not all DFAS
    field accounting sites were aware of the requirements for preparing, supporting,
    and approving journal vouchers. For example, DFAS Norfolk management
    indicated they were unaware of the requirement to prepare journal vouchers or
    of the DFAS guidance. In addition, two other factors contributed to the lack of
    compliance with DoD guidance: the lack of staff training and local operating
    procedures.



                                        8
        Staff Training. The Air Force Audit Agency identified six field
accounting sites that did not prepare journal vouchers correctly. Of the $693.3
million in journal vouchers reviewed, $322.2 million (46.5 percent) were not
properly prepared (see Appendix C for more detail). The Air Force Audit
Agency attributed part of the problem to the lack of training of accounting
technicians on preparing and supporting journal vouchers. Personnel should
have the proper training and exposure to DoD guidance. Without such training,
staff will not have the skills, knowledge, and competencies to properly support
and approve accounting entries or to correct abnormal balances.

        Local Operating Procedures. Table 2 shows two field accounting sites
that did not have adequate local operating procedures and two field accounting
sites that had no local operating procedures. Written local operating procedures
were reviewed at all locations except DFAS St. Louis. As a result, the field
accounting site accountants did not have detailed guidance for preparing and
supporting accounting entries. This guidance, or lack thereof, also applies to
researching and correcting abnormal balances.


             Table 2. Field Accounting Sites Without Adequate
                        Local Operating procedures

 1. The Defense Agency Financial Services Office had prepared written standard
    operating procedures that provided specific guidance; however, the written procedures
    did not provide detailed guidance for performing reviews of trial balances and
    correcting abnormal balances.

 2. DFAS Norfolk had two separate divisions performing accounting for Navy customers.
    The working capital fund division had three branches, one for each of the Navy
    shipyards. Two of the three working capital fund branches did not have operating
    procedures. The general fund division did not have any operating procedures.

 3. DFAS Omaha did not issue a local procedure implementing the October 1999 DFAS
    journal voucher guidance until 10 months later in August 2000.

 4. The Washington Headquarters Services Allotment Accounting System provided
    financial information to the Defense Agency Financial Services Office; however, the
    system’s users manual did not provide all the information needed on performing
    queries.



Having local operating procedures is particularly important given the operational
differences between and within the field accounting sites. In addition, local
operating procedures are needed so personnel know how to properly research
financial transactions and to obtain information from the financial management
systems. The central accounting site at DFAS Indianapolis is an example where
developing local operating procedures has improved operations. DFAS
Indianapolis has developed a local manual for the preparation of re-occurring
journal vouchers. The manual has assisted DFAS Indianapolis in accomplishing

                                         9
two important tasks. First, the manual has reduced the amount of effort it takes
to properly support a journal voucher. The manual contains common language
and methods to support routine journal vouchers. Second, the manual provides
the methodology for personnel to learn how to properly support a journal
voucher. The field accounting sites could use a similar methodology.

Journal Voucher Review and Approval. DoD Regulation 7000.14-R requires
that journal vouchers be properly reviewed and approved. The DFAS Arlington
Director for Accounting issued a memorandum on August 2, 2000, that
emphasized the requirement that journal vouchers had to be approved and
reviewed. The August 2000 memorandum specified that the guidance was
retroactive to October 1, 1999, for certain journal vouchers. A proper approval
is evidence that a supervisor or higher level authority has reviewed the journal
voucher for legitimacy and for adequate support. Table 3 shows the field
accounting sites where accounting entries were made without proper approval
and review. For example, DFAS Omaha personnel did not obtain approval for
$0.2 billion of the $11.6 billion in unsupported accounting entries made to U.S.
Transportation Command financial data. Some journal vouchers processed by
DFAS Norfolk had no approval signature. Other journal vouchers were
prepared and approved by the same person indicating inadequate internal
controls. The procedures for reviewing journal vouchers were reviewed at
10 of 13 of the field accounting sites visited during the audit.



               Table 3. Field Accounting Sites Where Journal
                  Vouchers Were Not Properly Approved

                           1. DFAS Dayton

                           2. DFAS Europe (Ramstein)

                           3. DFAS Japan (Yokota)

                           4. DFAS Limestone

                           5. DFAS Norfolk

                           6. DFAS Omaha

                           7. DFAS San Bernardino



Existing Guidance. The existing guidance contained in DoD Regulation
7000.14-R and issued by DFAS needed improvement. Specifically, procedures
for approving journal vouchers and for researching and disclosing abnormal
balances need to be clarified.



                                   10
        Approval Procedures. DoD Regulation 7000.14-R, which addresses
requirements for supporting and approving journal vouchers, was confusing.
DoD Regulation 7000.14-R stated only that an approval was required but not
when the approval should be made. This omission allowed DFAS to weaken
internal controls by adopting a lower standard for approving journal vouchers.
The DFAS August 2, 2000, journal voucher guidance improperly allowed
journal vouchers to be submitted and approved 5 work days before all
supporting documentation was identified and made available to the approving
official. The DFAS guidance, however, made a contradicting statement that the
approval of the journal vouchers constituted acceptance of the supporting
documentation. No journal voucher should be submitted for approval until all
supporting documentation is made available to the approving official. Without
the supporting documentation, the approving official is unable to make an
informed decision on whether an adjusting accounting entry is correct, valid, or
both. As a result, DoD Regulation 7000.14-R should be modified to clarify that
all documentation supporting a journal voucher should be attached when it is
submitted for approval.

         Abnormal Balance Research and Disclosure. DoD Regulation
7000.14-R requires the research of abnormal balances, and if the correct balance
can be determined, then the accounting records should be adjusted. However,
DoD Regulation 7000.14-R was not clear on how unresolved abnormal balances
should be treated and reported, particularly unresolved abnormal balances at the
field accounting sites. The field accounting sites have cleared unresolved
abnormal balances by an unsupported adjustment, thus canceling the effects of
the abnormal balances to the accounts. As a result, the unresolved abnormal
balances were not reported to the central accounting sites as a note to the trial
balances where they could potentially be corrected or properly resolved. In
addition, the unresolved abnormal balances were not disclosed on the Notes to
the Principal Statements. For example, the unresolved abnormal balances in the
accounting records processed by DFAS St. Louis were not properly researched
or disclosed before being reported. Under the concept of reliability, the
Statements of Federal Financial Accounting Concepts and Standards No. 1,
September 2, 1993, states that “information presented should be verifiable and
free from bias and should faithfully represent what it purports to represent.”
Making unsupported accounting entries to accounts with abnormal balances
produces unreliable information. DoD Regulation 7000.14-R should require
that if valid corrections cannot be made to abnormal balances, the field
accounting sites should be required to report those unresolved abnormal
balances to the central accounting sites.

The amounts of and explanations for abnormal balances should be included in
the DoD Agency-Wide Notes to the Principal Financial Statements. DoD
Regulation 7000.14-R, volume 6B, chapter 10, “Form and Content of the
Department of Defense Audited Financial Statements” only requires disclosing
abnormal balances included in Accounts Receivable or abnormal balances that
affect amounts on the Statement of Budgetary Resources. By excluding other
abnormal balances, material amounts of abnormal balances may be included in
the DoD Agency-Wide financial statements without disclosure. The report
section on “Abnormal Balances” contains additional examples. Unresolved
abnormal balances should be disclosed in the notes if the financial statement line
                                    11
is material regardless of the amount of the abnormal balance and regardless of
the statement line or note that was affected by the abnormal balance. Inspector
General, DoD, Report No. D-2001-163 “Accounting Entries Made in
Compiling the FY 2000 Financial Statements for the Working Capital Funds of
the Air Force and Other Defense Organizations,” July 26, 2001, recommended
that DoD Regulation 7000.14-R be revised to require that abnormal balances be
reported in the accounting records. Because the working capital funds of the
Air Force and Other Defense Organizations audit report did not discuss the
disclosure of unresolved abnormal balances in the footnotes, we are making the
recommendation in this report.

Implementation Strategy. DoD did not have a mechanism to ensure that field
accounting offices compiled financial information in accordance with DoD
requirements. Neither the USD (Comptroller) nor DFAS had developed plans
for corrective action addressing the accounting problems at the field accounting
sites and provided the mechanisms that ensure compliance with and
implementation of DoD Regulation 7000.14-R and DFAS guidance. Although
the Director, DFAS had issued guidance on the preparation and supporting
accounting entries, further implementing guidance was required. The DFAS
guidance also did not apply to field accounting sites operated by other DoD
entities such as the Washington Headquarters Service. The DFAS guidance
only addressed the use and preparation of journal vouchers; the guidance did not
address researching and resolving abnormal balances. An implementation
strategy should be established and require that all field accounting sites establish
local operating procedures, which as a minimum should:

       •   address the proper preparation and support of journal vouchers to
           include DFAS guidance,

       •   require the appropriate approval for all accounting entries made,

       •   emphasize the use of the accounting system to research detailed
           transactions that support general ledger account balances, and

       •   prescribe specific analytical techniques for detecting and researching
           abnormal balances in trial balance data.

The implementation strategies should require formal training for all staff
involved in the preparation of accounting entries and trial balances. Both
management and staff should be knowledgeable about DoD requirements for
properly supporting and approving an accounting entry and correcting an
abnormal balance.

The implementation strategy should require the Director, DFAS to monitor and
follow up on the progress being made by all field accounting sites to include
those sites operated by other DoD Components. The Director, DFAS needs to
develop an implementation strategy and require that reviews be made of field
accounting sites. The results of the reviews should be reported to management
addressing the progress being made to correct the deficiencies addressed in this
report.

                                     12
Management Actions Taken
    DoD organizations have taken some corrective action. Two field accounting
    sites, the Washington Headquarters Services and the Defense Agency Financial
    Services Office, took action to correct deficiencies and improve the accuracy of
    the trial balance data for FY 2000. They also are updating local operating
    procedures. DFAS Norfolk is working on correcting its abnormal balances by
    researching the proper balances. DFAS Denver has plans to review a sample of
    journal vouchers at field accounting sites that process Air Force financial
    information. Although such actions are beneficial, there is no assurance that all
    the significant problems at these field accounting sites will be corrected or
    corrected for the long-term. For example, one field accounting site did not take
    prompt action to correct the internal control deficiencies after the Naval Audit
    Service auditors addressed it in July 2000. Six months later, the Naval Audit
    Service auditors reviewed $5.6 billion in adjusting accounting entries made to
    the September 2000 general ledger and found that $2.0 billion (35.7 percent)
    were unsupported. In addition, there was no assurance that other field
    accounting sites that were not reviewed during the audit will correct similar
    internal control deficiencies.

Summary
    Because of a lack of adequate and integrated financial management systems,
    journal voucher accounting entries at the field accounting sites are necessary to
    input data, correct errors, post and reverse closing entries, correct abnormal
    balances, and make prior period accounting entries. However, the field
    accounting sites did not consistently support or provide sufficient explanation for
    the journal voucher accounting entries they made to financial records.
    Sufficient effort was not taken to research and correct abnormal balances. Some
    accounting entries were made that created abnormal balances. In addition, field
    accounting site personnel did not obtain approval to make accounting entries.
    Many of the documentation problems identified with journal voucher accounting
    entries made to financial records can be corrected by attaching adequate
    support, providing more detailed explanations in the journal voucher, or
    providing sufficiently detailed audit trails. Unsupported accounting entries at
    field accounting sites could increase, not decrease, requirements for accounting
    entries at central accounting sites.

    DoD must continue to rely on journal voucher entries and correcting of
    abnormal balances to prepare the DoD financial statements until an adequate and
    integrated transaction-driven accounting management system is implemented
    agency-wide. Until these internal control deficiencies are fully corrected, the
    FY 2001 and future financial statements prepared for DoD will be misstated.
    To that end, the Director, DFAS must develop and execute an implementation
    strategy to correct the deficiencies addressed in this report. The plan will need
    to address developing local operating procedures, providing formal training to
    staff, and continuing to monitor progress in correcting the deficiencies. In


                                        13
     related audit reports, the Inspector General, DoD, and the Service audit
     agencies have addressed issues similar to the findings contained in this report.
     However, we have limited our recommendations to issues not covered in these
     reports.

Management Comments on the Finding and Audit Response
     Management Comments. The Director for Accounting, DFAS, provided
     comments to a statement on page 10 of the report regarding $11.6 billion in
     unsupported accounting entries made by DFAS Omaha. DFAS stated that it had
     reviewed the journal vouchers for the $11.6 billion in unsupported accounting
     entries discussed under report section on “Journal Voucher Review and
     Approval” and found that support was available. However, the documentation
     was not always attached to the journal voucher when it was provided to the
     Inspector General, DoD, auditor.

     Audit Response. The section titled “Journal Voucher Review and Approval”
     on page 10 addressed the adequacy of the journal voucher approval and the
     review process at the field accounting sites. However, DFAS can not support
     its statement that the journal vouchers that made up $11.6 billion were
     supported. The Inspector General, DoD, auditors reviewed 277 journal
     vouchers for $12.6 billion in accounting entries of which $11.6 billion were
     unsupported. DFAS Denver only reviewed 103 of the 277 journal vouchers
     processed for the U.S. Transportation Command. In addition, if the supporting
     documentation was available, the documentation along with the journal vouchers
     should have been provided to the auditors. Instead, DFAS Omaha personnel
     tried to convince the auditors that the documentation provided to the auditors
     was adequate.

Recommendations, Management Comments, and Audit
  Response
  Revised and Renumbered Recommendations. We have deleted draft report
  Recommendations 2.c., 2.d., 2.e., and 2.f. to establish performance measures and
  metrics, to monitor field accounting site progress, and to report the results to the
  USD (Comptroller), and to coordinate the implementation strategies with field
  accounting sites not under DFAS management. Recommendation 2. was revised by
  removing the reference to the time-phased action plan and adding the reference to
  implementation strategy. A new recommendation was made to perform verification
  reviews and report the results to management and renumbered as
  Recommendation 2.c.

  1. We recommend that the Under Secretary of Defense (Comptroller) revise
  DoD Financial Management Regulation, DoD Regulation 7000.14-R to require
  that:




                                         14
     a. Approving officials be provided with all required supporting
documentation at the time each journal voucher is submitted for approval.

Management Comments. The USD (Comptroller) agreed with the
recommendation and stated that DoD Regulation 7000.14-R, volume 6A, chapter 2,
would eventually be revised. The USD (Comptroller) comments also stated that
detailed system reports may be too cumbersome to provide as supporting
documentation for a journal voucher; however, a summary report will be provided
with the journal voucher and the detailed report would be made available.

Audit Response. The USD (Comptroller) comments are partially responsive to the
recommendation. Comments to the final report should specify the date when DoD
Regulation 7000.14-R, volume 6A, chapter 2, will be revised.
        b. Field accounting sites research all abnormal balances on a continuous
monthly basis and make corrections if the actual account balances can be
properly determined. If abnormal balances can not be resolved, require that
the abnormal balances be reported by field accounting sites as a footnote to the
trial balances provided to the central accounting sites.

Management Comments. The USD (Comptroller) stated that in some cases the
funds holder, rather than the field accounting site, might be responsible for
performing the required research. Unresolved abnormal balances are currently
footnoted on the trial balances submitted to the DFAS centers.

Audit Response. The USD (Comptroller) comments were not responsive to the
recommendation. The USD (Comptroller) did not state whether DoD Regulation
7000.14-R would be changed to require that all abnormal balances be researched
and corrected or disclosed in the trial balance footnote if the abnormal balances are
not resolved. As discussed in Appendix C, two field accounting sites did not report
abnormal balances in the trial balance footnotes at the time of our review. Another
field accounting site made unsupported adjustments to hide abnormal balances, as a
result DFAS could not footnote abnormal balances. We request that the USD
(Comptroller) provide additional comments that provide planned corrective actions
and the date that action will be completed.

      c. Field accounting sites disclose the amounts of unresolved abnormal
balances for all financial statement lines impacted in the Notes to the Principal
Statements.

Management Comments. The USD (Comptroller) stated that the field accounting
site is not the appropriate level for the resolution of abnormal balances. Also, the
USD (Comptroller) stated that Note 1 of the Department’s financial statements,
“The (reporting entity) is unable to fully implement all elements of generally
accepted accounting principles…,” is sufficient disclosure.

Audit Response. The USD (Comptroller) comments are not responsive to the
intent of the recommendation. The amount of unresolved abnormal balances must
be rolled up from the field accounting sites or the true extent of abnormality will be
understated on the DoD Agency-Wide financial statements and because the
abnormal amounts from one activity will be offset by normal account balances by
                                        15
another activity. We disagree with the USD (Comptroller) comments that Note 1 of
the financial statements is adequate disclosure for abnormal balances. Note 1 does
not provide the scope and the magnitude of the abnormal balances that otherwise
would be hidden by offsets of normal balances. Also, Note 1 does not include the
financial statement line or the footnote that would be affected by the abnormal
balance.

2. We recommend that the Director, Defense Finance and Accounting Service,
develop and execute an implementation strategy to correct the deficiencies
identified in the report and monitor the progress. As a minimum, the plan
should:

       a. Require and ensure the field accounting sites develop local operating
procedures that reflect current DoD guidance and that reflect the local
operational environment. As a minimum, these procedures should include the
items discussed in the section on “Implementation Strategy.”

      b. Require specific training for all staff involved in the preparation of
accounting entries and trial balances.

       c. Perform verification reviews of compliance with applicable policies,
procedures, and journal voucher guidance and issue reports to management on
the results of the reviews.

Management Comments. DFAS stated that it concurred in principle with the
recommendations. DFAS stated that it did not believe that a time-phased action
plan was appropriate. Instead DFAS stated that draft implementation strategies had
been developed that address some of the issues raised in the report. Each strategy
contains milestones that incorporate the intent of the recommendation. Also, DFAS
did not believe that performance measures and detailed metrics were necessary to
ensure compliance with journal voucher guidance because it would be labor-
intensive to develop and implement performance measures and metrics. DFAS
stated that the DFAS Operational Review Program would perform verification of
compliance with applicable policies, procedures, and journal voucher guidance and
issue reports to management on the results of the reviews. In addition, DFAS will
take actions to encourage the field accounting sites to update and implement local
operating procedures and to provide comprehensive journal voucher training to field
accounting site personnel. The estimated completion of DFAS action is
September 30, 2001.

Audit Response. We consider the DFAS comments responsive. As result of the
DFAS comments, we made changes to the recommendations as discussed in the
section on “Revised and Renumbered Recommendations.” Because the actions
proposed by DFAS are adequate, no additional comments are required.




                                      16
Appendix A. Audit Process

Scope
    As part of our effort to determine whether the FY 2000 DoD Agency-Wide
    Financial Statements were presented fairly in accordance with OMB Bulletin
    No. 97-01, we reviewed processes used by the DoD field accounting sites to
    compile and report financial information to the DFAS central accounting sites.
    In addition, we reviewed FY 2000 financial information to determine accuracy
    and reliability. This audit report relies on work performed by auditors from the
    Inspector General, DoD, the Army Audit Agency, the Naval Audit Service, and
    the Air Force Audit Agency. We have reviewed their reports and working
    papers and consider their evidence sufficient, relevant, and competent. See
    Appendix C for detail on the work performed by each audit agency. We
    performed the audit at 13 field accounting sites: Defense Agency Financial
    Services Office at DFAS Indianapolis, DFAS Dayton, DFAS Europe
    (Ramstein), DFAS Japan (Yokota), DFAS Limestone, DFAS Norfolk, DFAS
    Omaha, DFAS Pacific (Ford Island), DFAS San Antonio, DFAS San
    Bernardino, DFAS St. Louis, Osan Regional Accounting and Finance Office,
    and Washington Headquarters Services. These 13 field accounting sites made
    accounting entries totaling about $19.5 billion that were not supported and
    reported financial information with about $0.5 billion in abnormal balances.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
             uncertain future by pursuing a focused modernization effort that
             maintains U.S. qualitative superiority in key warfighting capabilities.
             Transform the force by exploiting the Revolution in Military Affairs,
             and reengineer the Department to achieve a 21st century
             infrastructure. (01-DoD-02)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)

           • FY 2001 Performance Measure 2.5.1: Reduce the number of
             noncompliant accounting and finance systems. (01-DoD-2.5.1.).

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                         −DoD-2.5.2.).
             on financial statements. (01−



                                       17
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Financial Management Area. Objective: Reengineer DoD business
             practices. Goal: Standardize, reduce, clarify, and reissue financial
             management policies. (FM 4.1)

           • Financial Management Area. Objective: Strengthen internal
             controls. Goal: Improve compliance with the Federal Managers’
             Financial Integrity Act of 1982. (FM 5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    We reviewed field accounting site financial reporting processes to include
    receipt of financial data from DoD reporting entities, preparation of trial balance
    data, and the preparation and transmittal of financial reports to the DFAS
    central accounting sites. We reviewed accounting adjustments and trial balance
    data for field accounting sites that processed Army, Navy, Air Force, and Other
    Defense Organizations General Fund and Navy, Air Force, and Other Defense
    Organizations Working Capital Fund financial information. Appendix C
    contains more detail on what the Inspector General, DoD, the Army Audit
    Agency, the Naval Audit Service, and the Air Force Audit Agency auditors
    reviewed. The review included the following.

           •   Local operating procedures at 12 of the 13 DoD field accounting
               sites. The Army Audit Agency did not have sufficient resources to
               adequately review the local operating procedures at DFAS St. Louis.

           •   Review of the adequacy of supporting documentation and supervisory
               review for accounting entries made by 10 of the 13 DoD field
               accounting sites to financial data. Auditors focused their review on
               determining the causes for abnormal balances at the Defense Agency
               Financial Services Office at DFAS Indianapolis, DFAS St. Louis,
               and Washington Headquarters Service.

           •   Assessment of whether the processes used by the field accounting
               sites to make accounting entries and compile trial balance data were
               in compliance with applicable laws and regulations including
               accounting standards and accounting system requirements. We
               specifically reviewed the adequacy of the DoD Regulation 7000.14-R
               and DFAS guidance issued October 1999, and August 2, 2000,
               relating to accounting entries and abnormal balances.


                                        18
           •   Conducting interviews with personnel at the DoD field accounting
               sites, DFAS central accounting sites, DFAS Arlington, and the
               Office of the USD (Comptroller).

    Computer-Processed Data. We could not rely on the computer-processed data
    used by the field accounting sites to process financial information. DoD
    financial management systems were unreliable. DoD addressed deficiencies in
    its financial management systems in the DFAS Annual Statement of Assurance,
    the DoD Financial Management Improvement Plan, and the management
    representation letter for the DoD financial statements for FY 2000. Unreliable
    computer-processed data were used in preparing the accounting entries and the
    financial statements addressed in this report because they were the only data
    available. However, when the data are reviewed in context with other available
    evidence, we believe that the opinions, conclusions, and recommendations in
    this report are valid. Specifically, we reviewed hard copy journal vouchers and
    attached documentation when available for accounting entries. We will continue
    to review the adequacy of existing and proposed financial management systems.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April 2000 through April 2001. We conducted this audit in accordance
    with generally accepted Government auditing standards except we were unable
    to obtain an opinion on our system of quality control. The most recent external
    quality control review was withdrawn on March 15, 2001, and we will undergo
    a new review. Accordingly, we included tests of management controls, as we
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. As part of our
    overall objective to determine whether the DoD Agency-Wide financial
    statements were presented fairly, we also reviewed the adequacy of management
    controls, which included the management control program, related to the
    preparation of the DoD Agency-Wide financial statements. We also reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40. The management
    controls were deficient over the processing and reporting of financial
    information by the field accounting sites. Recommendations 1.a., 1.b., 1.c.,

                                       19
    2.a., 2.b., and 2.c. in this report, if implemented, will improve the management
    controls. A copy of the report will be provided to the senior official responsible
    for management controls in DoD.

    Adequacy of Management’s Self-Evaluation. DFAS reported the general
    ledger and financial reporting as a material weakness citing that the Financial
    Management Improvement Plan addressed system problems and fixes.
    Management reported the lack of adequate financial management systems as a
    management control deficiency and as an impediment to an audit opinion in the
    DoD Financial Management Improvement Plan. The USD (Comptroller) also
    acknowledged in its management representation letter for the FY 2000 DoD
    Agency-Wide Financial Statements that DoD financial management systems do
    not comply substantially with Federal accounting standards, Federal system
    requirements, and the U.S. Government Standard General Ledger at the
    transaction level.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov, and Inspector General, DoD, reports can be accessed on
    the Internet at http://www.dodig.osd.mil/audit/reports.




                                        20
Appendix B. General Guidance
   This appendix summarizes the guidance pertaining to accounting entries and
   abnormal balances. The Joint Financial Management Improvement Program
   and OMB publications address internal controls, policies, and procedures for
   recording, compiling, and reporting financial information. DFAS has issued
   guidance on the use, preparation, and support of journal voucher accounting
   entries.

   Joint Financial Management Improvement Program. The Joint Financial
   Management Improvement Program publications contain the specific
   requirements for financial management systems. JFMIP-FFMSR-0,
   “Framework for Financial Management Systems,” January 1995, defines the
   framework for establishing and maintaining financial management systems to
   support management and deliver programs of the Federal Government. The
   publication establishes financial data integrity control that imposes a discipline
   on tracking of effects on budgetary resources, financial position, and cost of
   activities. Specifically the publication requires:

          •   transaction tracking which is the capture, recording, and reporting of
              transactions from individual events occurring for necessary financial
              accountability;

          •   those data are only available to authorized users when needed; and

          •   approval controls, which are designed to provide reasonable
              assurance that appropriate individuals approve recorded transactions.

   The Joint Financial Management Improvement Program publication,
   JFMIP-SR-99-4, “Core Financial System Requirements,” February 1999,
   provides the common processing routines, supports common data for critical
   financial management functions affecting the entire agency, and maintains the
   required financial data control over financial transactions, resource balances,
   and other financial systems. This publication requires agencies to use account
   titles and definitions, chart of accounts, information processing, and subsidiary
   ledger support that is consistent with the Standard General Ledger, now referred
   to as the U.S. Government Standard General Ledger. In addition, it should:

          •   provide the capability to add, modify, and maintain editing and
              posting rules through control by authorized personnel;

          •   provide audit trails to trace transactions from source documents,
              original input, other systems, system-generated transactions, and
              internal assignment transactions through the system; provide details
              to support account balances; and provide audit trails to trace




                                        21
           transactions from their point of origination through to their
           summarization to the financial statements and the reverse;

       •   provide audit trails to identify changes made to system parameters
           and tables that would affect the processing of financial transactions;

       •   provide audit trails that identify document input, change, approval,
           and deletions by originator, and provide audit trails to identify any
           system changes, as well as document progress and changes;
       •   ensure that all transactions are handled consistently to ensure the
           validity of audit trails and transactions, regardless of their point of
           origin;

       •   provide a method for archiving data that will be needed for audit
           trails and a method for easily accessing any documents that are
           needed in the future; and

       •   provide an adequate audit trail which is critical to providing support
           for transactions and balances maintained by the core financial system.

The key goal of the core financial system is to provide “complete, reliable,
consistent, timely, and useful financial management information on operations to
enable central management agencies, individual operating agencies, divisions,
bureaus and other sub-units to carry out their fiduciary responsibilities. The
fiduciary responsibilities are to deter fraud, waste, and abuse of resources, and
facilitate efficient and effective delivery of programs by relating financial
consequences to program performance.”

Office of Management and Budget Circular No. A-123. Office of
Management and Budget Circular No. A-123, “Management Accountability and
Control,” June 21, 1995, provides guidance to Federal managers on improving
the accountability and effectiveness of Federal programs and operations by
establishing, assessing, correcting, and reporting on management controls.
OMB Circular No. A-123 requires Federal managers to promptly record,
properly classify, and account for transactions to prepare timely and reliable
accounts and reports. To effectively accomplish those responsibilities, Federal
agencies are required to prepare written procedures.

DFAS Guidance. On October 28, 1999, the DFAS issued a memorandum,
subject “Journal Voucher Guidance,” that provided guidance on the use and
preparation of journal vouchers; specifically, the guidance included
requirements for documenting, reviewing for accuracy, and approving journal
vouchers. On August 2, 2000, DFAS issued another memorandum on the same
subject, providing guidance that incorporated and emphasized the requirements
specified in the October 28, 1999, memorandum. The journal
voucher documentation and approval requirements specified in the




                                     22
August 2, 2000, guidance were retroactive to October 1, 1999, for certain
journal vouchers. Specifically, the guidance states that all journal vouchers
must be:

       •    sequentially numbered by entity and reflected in a journal voucher
            log,

       •    identified by specific journal voucher category,

       •    reviewed to ensure proper recording of entries,

       •    adequately documented to support the validity and the amount of the
            transaction,

       •    authorized and approved by the appropriate approving authority,

       •    prepared, documented, submitted, approved, and entered employing
            segregated duties,

       •    annotated with the name, title, and office symbol of both the preparer
            and approver, and

       •    maintained in a central location and retained for 6 years.

The DFAS guidance provides for a four-level threshold system for journal
voucher approval. The following Table shows the threshold levels.

           Threshold for Determining Proper Approving Official

      Dollar Amount                         Approving Official
Under $100 million           Team Leaders, General Fund or Working
                             Capital Fund Reporting Branch

$100 - $500 million          Chief, Procedures and Reporting, Office of
                             Chief Financial Officer

$500 million - $1 billion    Entity Director for Accounting

Over $1 billion              Entity Director




                                     23
Appendix C. Summary of Audit Work
            Performed
    We performed this audit with the assistance of the Army Audit Agency, Naval
    Audit Service, and the Air Force Audit Agency. We performed the audit at
    13 field accounting sites: Defense Agency Financial Services Office at DFAS
    Indianapolis, DFAS Dayton, DFAS Europe (Ramstein), DFAS Japan (Yokota),
    DFAS Limestone, DFAS Norfolk, DFAS Omaha, DFAS Pacific (Ford Island),
    DFAS San Antonio, DFAS San Bernardino, DFAS St. Louis, Osan Regional
    Accounting and Finance Office, and Washington Headquarters Services. This
    appendix summarizes the work performed by the Service audit agencies and
    Inspector General personnel at the 13 field accounting sites.

Army Audit Agency
    Army General Fund. DFAS St. Louis provides financial and accounting
    support for U.S. Army Materiel Command's major subordinate commands.
    The Army Audit Agency auditors evaluated procedures to process, correct, and
    report financial information to DFAS Indianapolis. DFAS St. Louis provides
    financial information in two data streams, general ledger trial balance data and
    status data.

            Adjustments to General Ledger. DFAS St. Louis made $211.5 million
    in unsupported adjustments to force the general ledger data to agree with status
    data as of September 30, 2000. DFAS St. Louis personnel did not perform
    research to determine which file, general ledger data, or status data were
    correct. Historically, status data rather than general ledger data have been the
    source of financial information for the Army. DFAS personnel considered
    status data more reliable than general ledger data. Systems personnel at DFAS
    St. Louis acknowledged that there were problems in posting transactions to the
    general ledger in the Standard Operations and Maintenance Army Research and
    Development System. However, there were too many problems with the status
    data to assume it was correct as discussed in the following paragraphs.

            Adjustments to Status Data Before Reports Are Sent to DFAS
    Indianapolis. DFAS St. Louis made about $85.6 million in temporary
    unsupported accounting entries to eliminate abnormal undelivered orders
    balances from the September 30, 2000, status data before reporting to DFAS
    Indianapolis. Reports Branch personnel did not conduct research to support
    these accounting entries before making them; as a result, the abnormal balances
    were not properly corrected prior to reporting. Undelivered orders are
    obligations for goods or services for which the payable has not yet accrued. An
    abnormal or negative undelivered order occurs when total expenses exceed total
    obligations. Personnel made temporary accounting entries to status data each
    month to eliminate this condition before sending reports to DFAS Indianapolis.


                                       24
    The accounting entries increased undelivered orders and decreased accounts
    payable. The accuracy and completeness of the data were questionable because
    of inadequate procedures DFAS St. Louis personnel followed in processing
    accounting entries. Improper adjustments eliminated the abnormal balances
    prior to reporting to DFAS Indianapolis so the abnormal balances were not
    disclosed in the Notes to the Principal Financial Statements of the Army General
    Fund or DoD Agency-Wide.

    DFAS personnel believed that improper posting of transactions and systems
    incompatibility were the likely causes for this condition. DFAS St. Louis
    personnel believed that most of its abnormal undelivered orders occurred
    because of improper posting of obligations or disbursements. DFAS
    Indianapolis personnel believed the cause of abnormal undelivered orders was
    systems incompatibility between the Mechanization of Contract Administration
    Services System and the Standard Operations and Maintenance Army Research
    and Development System.

            Adjustments to Status Data After Reports Are Sent to DFAS
    Indianapolis. Reporting and accounting entry procedures caused financial
    information on DFAS St. Louis’ status reports and general ledger trial balances
    to be out of balance after the data were submitted to DFAS Indianapolis. This
    out of balance condition contributed to the amount of the Army-wide accounting
    entry that DFAS Indianapolis made at year-end to force the general ledger
    accounting data to match the status data. After submitting status and general
    ledger data to DFAS Indianapolis, DFAS St. Louis personnel made $678 million
    in adjustments to clear abnormal balance errors in April 2000 status data. Some
    of the adjustments would have affected the general ledger data; however, DFAS
    St. Louis personnel did not conduct the necessary research to identify those
    adjustments and to make related and appropriate adjustments to the general
    ledger trial balances reported to DFAS Indianapolis.

Naval Audit Service
    Navy General Fund. The DFAS Norfolk General Fund Accounting Division is
    divided into the Ashore Accounting Section and Afloat Accounting Section.
    Both the Ashore Accounting Section and Afloat Accounting Section performed
    accounting services (prepared trial balance data) using the Standard Accounting
    and Reporting System Field Level. After the close of each accounting month
    and fiscal year-end, DFAS Norfolk electronically transfers trial balance data to
    the Standard Accounting and Reporting System Claimant Accounting Module at
    DFAS Cleveland for preparation of Navy General Fund financial statements.

           DFAS Cleveland Adjustments. The DFAS Cleveland did not process
    journal vouchers for FY 2000 year-end accounting entries when preparing
    General Fund financial statements as required by DFAS guidance and DoD
    Regulation 7000.14-R. The Naval Audit Service auditors identified 2,795




                                       25
financial adjustments totaling about $4.13 billion that were processed without
journal vouchers and without complete audit trails. These FY 2000 year-end
General Fund financial adjustments were for:

       •   database variances between the DFAS Norfolk Standard Accounting
           and Reporting System Field Level and DFAS Cleveland Standard
           Accounting and Reporting System Claimant Accounting Module, and

       •   additional accounting data input by DFAS Norfolk customers because
           they were not able to meet year-end trial balance closing deadlines.

       DFAS Norfolk Adjustments. DFAS Norfolk had not processed journal
vouchers for 140 FY 2000 year-end General Fund accounting entries totaling
about $163 million into the Standard Accounting and Reporting System Field
Level. The 140 FY 2000 year-end General Fund accounting entries were for:
(1) unpaid accrued leave liabilities, (2) database variances between various
Trial Balance Reports and Expense Element Reports, and (3) correction of data
keypunch errors. DFAS Norfolk management stated they were not aware of the
requirement to prepare journal vouchers for accounting entries. Because the
documentation was insufficient, there was no evidence that accounting entries
were reviewed or approved.

       Abnormal Balances. The Naval Audit Service auditors also identified
59 abnormal (negative) general ledger account balances totaling about
$87.2 million on September 30, 2000, accounting records that needed to be
researched and corrected by DFAS Norfolk. These abnormal balances related
to Accounts Payable and Undelivered Orders citing FY 1997 and older
appropriations. DFAS Norfolk was in the process of researching and correcting
these abnormal balances that were primarily created when DFAS Norfolk
converted from the Fleet Resources Accounting Module to the Standard
Accounting and Reporting System Field Level at the beginning of FY 1998.
The abnormal balances were not disclosed in the Notes of the Principal
Statements of the Navy General Fund or the DoD Agency-Wide financial
statements.

Navy Working Capital Fund. DFAS Norfolk performs the accounting for the
three active Naval Shipyards--Norfolk, Portsmouth, and Puget Sound. The
Naval Shipyard financial accounting did not have a compliant and integrated
General Ledger financial management system. DFAS Norfolk compiled
financial information using Excel spreadsheets from information received from
the Navy shipyards by the Shipyard Management Information System, electronic
mail, and fax. The lack of a compliant financial accounting system necessitated
a work-around and unnecessary duplication of transaction entries in order to
prepare and report financial data. These manual processes can result in errors
in financial data; are an inefficient use of resources; and increase the risk for
inaccurate Department of the Navy Working Capital Fund financial reports.




                                   26
        Journal Voucher Support. The Naval Audit Service auditors found
that 44 (for $3.1 billion) of the 121 (for $5.2 billion) journal voucher
transactions processed for the Naval Shipyards’ March 31, 2000, financial
statements by DFAS Norfolk were unsupported and did not have adequate audit
trails. These deficiencies existed, primarily, because DFAS Norfolk had not
required the Shipyards to forward journal voucher support and had not
maintained support to provide a clear audit trail for these transactions. Their
review found the following:

       •   Only partial support was available for 27 journal vouchers valued at
           $2.2 billion. Computer-generated reports or a spreadsheet prepared
           by the Shipyards was provided as support for these journal vouchers,
           but the support was not complete in all aspects. DFAS Norfolk had
           not obtained sufficient support that provided a clear audit trail.

       •   Support was missing for 15 journal vouchers valued at
           $575.2 million. The transactions were posted to the general ledger
           based solely on the journal vouchers, and DFAS Norfolk did not
           have backup for all journal voucher transactions.

       •   Two journal voucher transactions, valued at $309.2 million, were
           based on an unsupported computation. DFAS Norfolk matched
           Shipyard activity cash balances with DFAS Cleveland’s Activity
           Control Ledger to force amounts to agree. A true reconciliation
           between activity cash and U.S. Treasury cash was not performed.

       Journal Voucher Approval. The journal vouchers were not properly
reviewed and approved. Not all journal vouchers were properly signed.
Signatures in the “prepared by” and “approved by” columns of some journal
vouchers were missing. In addition, a few journal vouchers were prepared and
approved by the same person.

        Local Operating procedures. DFAS Norfolk had not established
consistent and complete operating procedures for the three Naval Shipyard
Accounting Branches in accordance with public law and implementing
regulations. Specifically, outdated guidance was still in use, two of the three
accounting branches did not have desktop procedures, and finance and
accounting practices and procedures were inconsistent among the branches.
DFAS Norfolk management stated they had not created or updated operating
procedures because finance and accounting business practices had been changing
over the past few years. Also, DFAS Norfolk personnel assigned higher
priority to performing required finance and accounting functions rather than to
documenting the procedures. These deficiencies increased the risk of errors and
material misstatements in the Naval Shipyards’ financial statements.




                                   27
Air Force Audit Agency
    Air Force General Fund. The Air Force Audit Agency auditors sampled
    journal vouchers processed at nine field accounting sites. These nine field
    accounting sites provide accounting support for the Air Force and report the
    information to DFAS Denver who prepares the Air Force General Fund
    financial statements. The Air Force Audit Agency auditors reviewed
    420 accounting entries valued at $693.3 million that were processed to adjust
    accounting data by 9 sites during FY 2000. The following Table shows that
    $322.2 million (46.5 percent) of the $693.3 million in accounting entries were
    not adequately supported at six of the nine field accounting sites.




                    Summary of FY 2000 Journal Vouchers Reviewed

                                        Total         Journal      Unsupported
                                       Journal       Vouchers        Journal
                                      Vouchers       Reviewed       Vouchers      Unsupported
         Field Accounting Site       ($ Millions)   ($ Millions)   ($ Millions)     Percent

     DFAS Dayton                         802.8         127.4           28.5          22.4
     DFAS Europe (Ramstein)              269.8          15.0           15.0         100.0
     DFAS Limestone                      625.0         209.9           33.5          16.0
     DFAS Omaha                          273.5           9.5            4.0          42.1
     DFAS Pacific (Ford Island)           81.6           0.3            0.0             0
     DFAS San Antonio                    180.7          20.5            0.0             0
     DFAS San Bernardino               1,243.1         310.5          241.1          77.6
     DFAS Japan (Yokota)                  69.7           0.2            0.1          50.0
     Osan Regional Accounting
     and Finance Office                   32.5          0.0*            0.0             0

             Totals                     3,578.7         693.3         322.2           46.5
     * the value of the journal vouchers reviewed was $8,400



           Journal Voucher Support. The journal vouchers at the six field
    accounting sites had problems with inadequate documentation and had problems
    with printed names, annotating references, and inadequate explanations. The
    journal vouchers and attached documentation did not explain why the
    transactions were processed or support the transaction amount. Some journal
    vouchers were prepared at the base level and then certified at the DFAS field
    accounting sites. Field site approving officials obtained and reviewed the
    available supporting documentation, but the supporting documentation was not
    kept with the journal vouchers when they went to the field accounting sites to be


                                            28
certified. In addition, field accounting sites did not properly approve the journal
vouchers used for the accounting entries. Also, field accounting site personnel
did not ensure that support was adequate and attached before certifying the
journal vouchers. The six field accounting sites did not comply with DoD
Regulation 7000.14-R and DFAS journal voucher guidance, specifically, the
field accounting sites were not aware of the guidance. DFAS field accounting
site personnel did not fully understand and implement existing guidance
pertaining to the preparation of journal vouchers. Air Force Audit Agency
auditors reported a lack of training on journal voucher preparation for some
field accounting site personnel. Air Force Audit Agency auditors also
concluded that there was a lack of training needed to ensure that DFAS field
accounting site personnel accurately prepared and recorded journal vouchers.

         Financial Management Systems. There were two computer systems
used to produce the journal vouchers reviewed by the Air Force Audit Agency
auditors: the General Accounting and Finance System-BQ and the Central
Procurement Accounting System. The General Accounting and Finance
System-BQ accounts for all financial transactions concerned with appropriated
funds, revenues, assets, liabilities, cost, and property, including funding
authority, commitments, obligations, and balances of available funds. The Air
Force attempts to use the General Accounting and Finance System-BQ to fulfill
functions of a general ledger system. However, the General Accounting and
Finance System-BQ was not designed and implemented in a manner permitting
it to satisfactorily perform these functions. The Central Procurement
Accounting System records all stages of fund execution at base level accounting
offices and employs funds controls, performs automated year-end closings, and
retains detailed contract history data. The Central Procurement Accounting
System is the interface for reporting disbursements, status of funding, and the
redistribution of costs/expenses on contractual actions. The Central
Procurement Accounting System interfaces the General Accounting and Finance
System-BQ. As a result, the General Accounting and Finance System-BQ and
the related financial systems did not provide all the data on accounts needed to
prepare financial statements or other financial reports.

Air Force Working Capital Fund. DFAS San Bernardino performs
accounting for the Air Force Working Capital Fund. The Air Force Audit
Agency auditors reviewed information, guidance, and documentation for the
General Accounting and Finance System-BQ and the Central Procurement
Accounting System used by San Bernardino to process journal vouchers. DFAS
San Bernardino made $2.3 billion in accounting entries to the Air Force
Working Capital Fund financial data in March and September 2000 to financial
data processed by these two accounting systems.

The Air Force Audit Agency auditors reviewed 179 accounting entries valued at
$14.4 million and found that 31 accounting entries valued at $3.2 million
(22.2 percent) that did not have sufficient documentation to support the journal
voucher accounting entries. Of the 31 unsupported accounting entries, 19 had
no support attached, 6 had no explanation on the journal voucher, and for 6 of



                                    29
            the accounting entries, the Air Force Audit Agency auditors were unable to
            determine the reason they were made. DFAS San Bernardino personnel were
            aware of the requirements for supporting journal vouchers and had local
            operating procedures. However, they did not adequately support all accounting
            entries because of the heavy workload caused by restructuring of DFAS field
            accounting sites.

Inspector General
            Other Defense Organizations General Fund. Two field accounting sites were
            reviewed that perform accounting services for the Other Defense Organizations.
            They are the Defense Agency Financial Services Office and the Washington
            Headquarters Services.

                    Defense Agency Financial Services Office. The Defense Agency
            Financial Services Office at DFAS Indianapolis provides accounting support for
            18 Other Defense Organizations. Defense Agency Financial Services
            accounting office personnel are required to prepare trial balances on a quarterly
            basis, to identify deficiencies when they occur, and to correct those deficiencies
            before preparing the year-end financial statements. However, the
            March 31, 2000, trial balances prepared from the accounting records that were
            maintained by the Defense Agency Financial Services Office included
            $233.8 million of net abnormal balances. None of the abnormal balances were
            explained in the footnotes for 29 general ledger accounts of 14 Other Defense
            Organizations. The abnormal balances occurred because:

                    •    the Defense Agency Financial Services Office recorded accruals as
                         non-Government transactions and recorded the corresponding
                         disbursements as Government transactions;

                    •    the accounting system, as configured, did not properly identify
                         accrual accounting entries affecting prior reporting periods and,
                         therefore, did not post those transactions to the correct general ledger
                         accounts; and

                    •    the Defense Agency Financial Services Office recorded accruals
                         twice in one fiscal year and removed the duplicates in one of the
                         following fiscal years.

            DoD Inspector General auditors reviewed $52.1 million1 of downward accrual
            accounting entries that contributed to the net abnormal balance of $33.1 million
            in general ledger account 5700. Although the transactions affected multiple
            reporting periods, the Washington Headquarters Services Allotment Accounting

1
    An abnormal balance reflects the net amount by which the total abnormal transactions exceed the total
    normal transactions. Therefore, the total value of abnormal transactions is ordinarily larger than the
    amount of the abnormal balance.



                                                      30
            System posted the accounting entries to general ledger account 5700, which
            reports transactions affecting the current period. The Washington Allotment
            Accounting System calculated the balance for general ledger account 5700 using
            accruals and other transaction data. It should, however, have included only
            accruals recorded and adjusted in the current year. 2 Accounting entries affecting
            a prior period should have been posted to Prior Period Adjustments, general
            ledger account 7400. Of the $233.8 million in net abnormal balances that the
            Defense Agency Financial Services Office reported, $28.1 million of the
            abnormal balances were reported in Other Services Expense (general ledger
            account 6120). Similar to general ledger account 5700, the Washington
            Allotment Accounting System used a combination of accruals and other
            transaction data to calculate the balance for general ledger account 6120 and did
            not correctly differentiate between transactions affecting multiple reporting
            periods. The Washington Allotment Accounting System posted all accounting
            entries to the current year general ledger account 6120, instead of correctly
            posting accounting entries affecting prior periods to general ledger
            account 7400.

            Additionally, the current local operating procedures were not adequate to ensure
            that trial balances were thoroughly reviewed and corrected before being
            included in the financial statements. Further, the accounting system and
            associated instruction manuals did not provide adequate tools and explanations
            for accounting personnel to conduct necessary research on details supporting
            accounting balances.

                    Washington Headquarters Services. Washington Headquarters
            Services provides accounting support to specified DoD organizations, and
            system support for the Washington Allotment Accounting System, an accounting
            system used for a majority of the individual organizations and funds.
            Washington Headquarters Services maintains the official accounting records for
            funds that it receives and also provides accounting support to various funds
            allocated to the Office of the Secretary of Defense, the United States Court of
            Appeals for the Armed Forces, the Pentagon Reservation Maintenance
            Revolving Fund, and the Pentagon Building Maintenance Fund.

            Washington Headquarters Services personnel are required to prepare trial
            balances on a quarterly basis to identify deficiencies as they occur and to correct
            those deficiencies before preparing the year-end financial statements. However,
            the March 31, 2000, trial balances prepared from accounting records that
            Washington Headquarters Services maintained included $74.9 million of net
            abnormal balances, none of which were explained in footnotes. Inspector
            General, DoD, auditors examined 95 percent of the abnormal balances on the
            trial balances and found that:


2
    The Washington Allotment Accounting System records four types of transactions: commitments,
    obligations, accruals, and disbursements. The four transactions, along with various classification codes,
    are used to calculate balances that are later posted to general ledger accounts.



                                                      31
       •   Washington Headquarters Services did not transfer prior fiscal year
           ending account balances to the beginning balances in subsequent
           fiscal years, and caused $51.8 million of net abnormal balances in
           FY 2000;

       •   Washington Headquarters Services did not ensure that accruals and
           corresponding disbursements were both recorded as either
           Government or non-Government transactions, and caused
           $13.7 million of net abnormal balances; and
       •   the Washington Allotment Accounting System, as configured, did not
           properly identify accrual accounting entries affecting prior reporting
           periods. Consequently, the accounting entries were recorded to
           general ledger accounts that only report transactions for the current
           period and caused $5.6 million of net abnormal balances. The
           correcting entries were not consistent with Generally Accepted
           Accounting Principles. During the audit, Washington Headquarters
           Services took effective action to reduce deficiencies identified during
           the audit, thereby, reducing reported year-end total net abnormal
           balances from $159.2 million as of September 30, 1999, to
           $4.6 million as of September 30, 2000.

The abnormal balances also occurred because Washington Headquarters
Services did not have adequate written procedures to review trial balances and
to disclose abnormal conditions. Also, the Washington Allotment Accounting
System did not provide the requisite query interfaces for accountants to
effectively research and correct deficiencies. The Washington Allotment
Accounting System program manuals did not provide detailed instructions on
how to research account balances, obtain supporting details at the transaction
level, and correct identified problems.

Other Defense Organizations Working Capital Fund. DFAS Omaha
performs the accounting for the U.S. Transportation Command. The
Transportation Component Commands’ field-level activities process transactions
and transmit the financial data to Omaha. After the journal entries and other
accounting entries had been made, Omaha created a single trial balance for each
Transportation Component Command, and provided the trial balances to DFAS
Denver.

        Journal Voucher Support. Inspector General, DoD, auditors
determined that DFAS Omaha made $12.6 billion in journal voucher accounting
entries to U.S. Transportation Command accounting records in March 2000, of
which $11.6 billion (92 percent) were not adequately supported. Further,
$0.2 billion (2 percent) of the unsupported entries were not properly approved.
These conditions occurred because:

       •   existing DoD guidance on the use and preparation of journal
           vouchers was not being followed,



                                    32
       •   supporting documentation was nonexistent, incomplete, or did not
           support the amount of the accounting entry, and

       •   DFAS Omaha personnel did not consistently obtain approval for the
           accounting entries.

Consequently, these material control weaknesses will affect the accuracy and
reliability of the accounting records and the information included in the FY 2000
DoD Agency-Wide Financial Statements. Although the Inspector General,
DoD, auditors are unable to project over the $173.6 billion in U.S.
Transportation Command accounting entries processed by DFAS Omaha during
FY 2000, similar levels of unsupported transactions may have occurred
throughout the entire year.

        Financial Management Systems. U.S. Transportation Command and
its Transportation Component Commands use different general ledger
accounting structures. The U.S. Transportation Command, Headquarters, and
its Air Mobility Command use the Air Force Industrial Fund general ledger
structure. The Military Traffic Management Command uses the Army
Industrial Fund general ledger structure. The Military Sealift Command used
the Department of the Navy Industrial Business Fund general ledger structure.
However, in July 2000, the Military Sealift Command implemented a U.S.
Standard General Ledger accounting structure.




                                   33
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization and Individual
Office of Management and Budget




                                           34
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         35
Under Secretary of Defense (Comptroller)
Comments




                   37
38
39
Defense Finance and Accounting Service
Comments




                   40
41
42
43
Audit Team Members
The Financial and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, produced this report. Personnel of the Office of the Inspector General,
who contributed to the report are listed below.


Paul J. Granetto
Richard B. Bird
Jack L. Armstrong
Paul C. Wenzel
Kara N. Brown
Kathleen A. Furey
Monica L. Noel
